  Office of Inspector General
       Audit Report


   FMCSA GENERALLY COMPLIES WITH
STATUTORY REQUIREMENTS, BUT ACTIONS
    ARE NEEDED PRIOR TO INITIATING
  ITS NAFTA CROSS-BORDER TRUCKING
            PILOT PROGRAM
    Federal Motor Carrier Safety Administration
           Report Number: MH-2011-161
           Date Issued: August 19, 2011
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FMCSA Generally Complies With                                        Date:    August 19, 2011
           Statutory Requirements, but Actions Are Needed
           Prior To Initiating Its NAFTA Cross–Border
           Trucking Pilot Program
           Report Number MH-2011-161

  From:    Joseph W. Comé                                                            Reply to
                                                                                                 JA-40
                                                                                     Attn. of:
           Assistant Inspector General for
              Highway and Transit Audits

    To:    Federal Motor Carrier Safety Administrator


           On July 6, 2011, the United States Secretary of Transportation and the Mexico
           Secretaría de Comunicaciones y Transportes signed a memorandum of
           understanding (MOU) resolving a long–standing dispute over long–haul, cross–
           border trucking services between the United States and Mexico under the
           provisions of the North American Free Trade Agreement (NAFTA). On
           July 8, 2011, the Federal Motor Carrier Safety Administration (FMCSA)
           published a Federal Register notice 1 authorizing Mexico–domiciled motor carriers
           to transport cargo, under a pilot program, beyond the border commercial zones
           throughout the United States (long–haul operations). 2

           The Omnibus Appropriations Act of 2009 3 ended the previous pilot program
           without authorizing long–haul operations for Mexico–domiciled carriers.
           Consequently, Mexico imposed tariffs on several categories of goods imported
           from the United States. In June 2011, Mexico agreed to completely lift the tariffs
           after the first Mexico–domiciled motor carrier receives authority for long–haul
           operations into the United States.



           1
               Pilot Program on the North American Free Trade Agreement (NAFTA) Long-Haul Trucking Provisions, Docket No.
               FMCSA-2011-0097, 76 Fed. Reg. 40420 (July 8, 2011).
           2
               Commercial zones generally extend from 3 miles to 25 miles north of United States border municipalities in
               California, New Mexico, and Texas (or 75 miles in Arizona).
           3
               Pub. L. No. 111-8 (2009).
                                                                                                                    2


By law, 4 FMCSA must first test long–haul operations as part of a pilot program
before it grants long-haul operating authority to Mexico-domiciled motor carriers.
This legislation also requires the Office of Inspector General (OIG) to review
FMCSA's implementation of pilot programs for granting long–haul authority to
Mexico-domiciled motor carriers. Before a pilot program is initiated, (1) OIG
must provide an initial report to the Secretary and Congress verifying FMCSA's
compliance with requirements Congress established in 2001 5 and (2) the Secretary
must take action as necessary to address any issues raised in our initial report and
submit a report to Congress detailing such actions. This report satisfies our
requirement for issuing an initial report on the pilot program.

Our overall audit objective was to assess FMCSA's policy, procedures, and
processes for granting operating authority to Mexico–domiciled motor carriers
under the pilot program and for monitoring and ensuring the carriers' compliance
with United States laws and regulations. Specifically, we (1) verified whether
FMCSA complied with requirements set forth in Section 350(a) of the 2001
legislation, which included conducting pre–authorization safety audits (PASAs) 6
for Mexico–domiciled carriers seeking long–haul operating authority,
(2) determined whether FMCSA addressed language differences between Section
350(a) and its regulations that we identified in our initial audit of the prior pilot
program, and (3) identified issues that should be addressed before the pilot
program is initiated.

To conduct our work, we interviewed Federal and state officials, reviewed
FMCSA documentation, and observed inspections at 6 of 23 commercial truck
border crossings in El Paso, Texas; Laredo, Texas; Otay Mesa, California; and
Tecate, California. We also observed inspections at weigh stations in Decatur,
Texas, and Dumfries, Virginia. We conducted this audit from April through July
2011, in accordance with generally accepted government auditing standards.
Exhibit A details our objectives, scope, and methodology and exhibit B identifies
the site visits and contacts we made.


RESULTS IN BRIEF
FMCSA has met most of the 34 7 Section 350(a) requirements that it must meet
before processing applications from pilot program participants. However, the
agency has not met those requirements related to conducting safety reviews onsite

4
    U.S. Troop Readiness, Veteran's Care, Katrina Recovery, and Iraq Accountability Act, 2007, Pub. L. No. 110-28,
    § 6901.
5
    Department of Transportation and Related Agencies Appropriations Act, Pub. L. No. 107-87, Title I, § 350(a)
    (2001).
6
    The PASA is a FMCSA review in which the motor carrier must demonstrate that it complies with requirements for
    drug and alcohol testing, hours-of-service, insurance, vehicle maintenance and inspections, and qualified drivers.
7
    We identified 34 distinct requirements from among the 10 sub-sections of Section 350(a). See exhibit C.
                                                                                                                3


in Mexico. Specifically, FMCSA has not finalized its plans for nor identified the
specific process it will use to comply with five requirements to conduct 50 percent
of PASAs and compliance reviews in Mexico, and its policy on conducting
PASAs for the new pilot program does not address where the reviews will be
conducted.

Two variations between FMCSA's regulations and the Section 350(a)
requirements that we reported on previously still remain, but are not significant
provided that pilot program plans are successfully executed. We reported in
September 2007 8 that FMCSA's regulation and policy language slightly differed
from the language in 3 of the 34 specific Section 350(a) requirements pertaining to
truck inspections during PASAs, border license checks of drivers working for
Mexican carriers, and safety rules for longer combination vehicles. FMCSA
updated its policy language on border license checks to comply with Section
350(a). Although the regulation language continues to differ for the
two requirements pertaining to PASA truck inspections and longer combination
vehicles, the pilot program and FMCSA's written PASA guidance complies with
the Section 350(a) requirements. We see no safety impacts arising from these
differences if the guidance is put in place and operates effectively.
FMCSA continues to have personnel, facilities, and systems in place to conduct
adequate inspections of Mexican drivers and trucks at border crossings. FMCSA
also took actions towards implementing three recommendations from our August
2009 report 9 that would improve its monitoring of Mexican Federal commercial
driver's license (CDL) holders operating in the United States, including pilot
program participants. Although FMCSA has taken positive actions to improve
monitoring of Mexican drivers and trucks, it has not yet addressed certain issues
for implementing the pilot program. Specifically, FMCSA has not (1) issued site–
specific plans for checking drivers and trucks at the border, (2) established a
system to verify driver and truck eligibility for the pilot program, (3) issued an
implementation plan nor acquired electronic monitoring devices for use in the
pilot program, and (4) conducted pilot program training for inspection personnel at
the border and within the United States.
The Secretary is required by law to submit a report to Congress detailing the
actions the Department is taking to address each of the issues raised in this report.
We are making a recommendation to ensure that the Secretary's report to Congress
addresses these issues. If the Secretary elects to initiate the pilot program

8
    OIG Report Number MH-2007-065, "Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
    Demonstration Project," September 6, 2007. All OIG reports are available on our website at: www.oig.dot.gov.
9
    OIG Report Number MH-2009-068, "Follow-Up Audit of the Implementation of the North American Free Trade
    Agreement’s (NAFTA) Cross-Border Trucking Provisions," August 17, 2009. OIG issued similar reports in August
    2007, January 2005, May 2003, and June 2002. Exhibit D summarizes our August 2009 report and lists other prior
    OIG audits of cross-border trucking.
                                                                                                   4


following his report to Congress, we will be required under Section 6901 to
monitor and review the pilot program and submit interim and final reports to the
Secretary and Congress.

BACKGROUND
Section 6901 of the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and
Iraq Accountability Appropriations Act of 2007 permits DOT to obligate or
expend funds to grant long–haul authority to Mexico–domiciled trucks only after
first testing such long–haul operations through a pilot program. 10 Section 6901
details additional requirements for OIG. Specifically, the legislation requires OIG
to provide an initial report, before FMCSA grants long–haul authority to any
carrier, to the Secretary of Transportation and Congress verifying that the
Secretary has established sufficient mechanisms to ensure Mexico–domiciled
motor carriers granted long–haul authority comply with Federal motor carrier
safety laws and regulations; and also verifying FMCSA's compliance with
requirements set forth in Section 350(a) of the Department of Transportation and
Related Agencies Appropriation Act of 2002.

The pilot program, as defined in the July 8, 2011, Federal Register notice, would
allow Mexico–domiciled motor carriers to operate throughout the United States
for up to 3 years. Before receiving permanent long–haul operating authority, pilot
program participants with provisional operating authority would be required to
progress through a series of inspections, operational reviews, and evaluations of
safety performance. In addition, participants would be required to comply with
existing motor carrier safety regulations plus certain additional requirements
associated with acceptance into the pilot program. Passenger and hazardous
materials carriers are not allowed to participate in the pilot program.

Several agencies have roles in overseeing Mexico–domiciled trucks entering the
United States. FMCSA must monitor the operational safety of Mexico–domiciled
motor carriers participating in the pilot program. Monitoring includes verifying the
motor carrier’s operating authority, inspecting trucks, checking driver's licenses,
reporting crashes, and initiating enforcement actions, when appropriate. To
accomplish these monitoring activities, FMCSA works closely with state
commercial motor vehicle safety agencies, which assist FMCSA with inspecting
Mexico–domiciled drivers and trucks as they cross the border and within the
United States. FMCSA must also coordinate its border operations with the
Department of Homeland Security, Customs and Border Protection (CBP), which
has jurisdiction over the ports of entry with Mexico.



10
     FMCSA must conduct any pilot program in compliance with requirements in 49 U.S.C. 31315(c).
                                                                                                                 5


FMCSA HAS MET MOST STATUTORY REQUIREMENTS, BUT
HAS NOT FINALIZED PLANS FOR REVIEWS IN MEXICO
FMCSA has met most of the 34 Section 350(a) requirements that it must meet
before processing applications from pilot program participants. However, the
agency has not yet met those requirements related to conducting safety reviews
onsite in Mexico. Specifically, FMCSA has not finalized its plans for nor
identified the specific process it will use to comply with five requirements to
conduct 50 percent of PASAs and compliance reviews in Mexico, and its policy
on conducting PASAs for the new pilot program does not address where the
reviews will be conducted.

Section 350(a) requires that Mexico–domiciled motor carriers applying for
participation in the pilot program must first successfully complete a PASA to
obtain provisional long–haul operating authority. Although FMCSA's PASA
guidance does not address where FMCSA will conduct the reviews, the guidance
does address critical safety elements such as (1) a controlled substance and alcohol
testing program, (2) a system for complying with hours–of–service requirements,
(3) proof of insurance, (4) identification of qualified drivers for United States
operations, and (5) records of periodic inspection of vehicles for use in the United
States. After verifying these elements, FMCSA officials then perform vehicle
inspections and verify whether the motor carrier can comply with Federal
regulations. Within 18 months of that motor carrier being granted conditional
operating authority, FMCSA must conduct a compliance review, which could lead
to permanent operating authority. 11

FMCSA officials informed us in June 2011 that they intend to comply with the
law for conducting PASAs and compliance reviews, but have not developed plans
and safeguards for conducting PASAs in Mexico. They had previously informed
us in April and May 2011 that they did not plan to conduct reviews in Mexico due
to safety concerns. FMCSA's policy for conducting PASAs does not address
where PASAs will be conducted. Without specific plans for conducting onsite
PASAs or compliance reviews, FMCSA may not comply with the following five
requirements.

            §350(a)(1)(B)(vii) requires evaluation of a motor carrier’s safety
            inspection, maintenance, and repair facilities 12 or management systems,
            including verification of records of periodic vehicle inspections.



11
     According to FMCSA, the permanent authority under the pilot program may be converted into standard permanent
     authority upon completion or termination of the pilot program. Further, in calculating the 18 months under the
     current pilot program, carriers could receive credit for time operated during the previous pilot program.
12
     Evaluation of a repair facility would require an on-site inspection in Mexico.
                                                                                   6


       §350(a)(1)(C)(i) requires Mexican motor carriers with three or fewer
       commercial vehicles need not undergo on–site safety examination; however
       50 percent of all safety examinations of all Mexican motor carriers shall be
       conducted on site.

       §350(a)(1)(C)(ii) requires that such on–site inspections shall cover at least
       50 percent of estimated truck traffic in any year.

       §350(a)(2)(A) requires that Mexican motor carriers with three or fewer
       commercial vehicles need not undergo on–site compliance reviews;
       however 50 percent of all compliance reviews of all Mexican motor carriers
       shall be conducted on site.

       §350(a)(2)(B) requires that any Mexican motor carrier with four or more
       commercial vehicles that did not undergo an on–site safety exam under
       (a)(1)(C), shall undergo an on–site safety compliance review under this
       section.

We will review, during our next audit, any implementation or documentation
issues with implementing these requirements, if the pilot program proceeds. This
upcoming audit will include determining whether the application process
emphasizes compliance with all safety rules currently applying to Mexico–
domiciled carriers.

GUIDANCE COMPLIES WITH STATUTORY REQUIREMENTS BUT
VARIATIONS BETWEEN REGULATIONS AND STATUTES REMAIN
Two variations between FMCSA's regulations and the Section 350(a)
requirements that we reported on previously still remain, but are not significant
provided that pilot program plans are successfully executed. We reported in
September 2007 that FMCSA's regulation and policy language slightly differed
from the language in 3 of the 34 specific Section 350(a) requirements pertaining to
truck inspections during PASAs, border license checks of drivers working for
Mexican carriers, and safety rules for longer combination vehicles. FMCSA
updated its policy language on border license checks to comply with Section
350(a). Although the regulation language continues to differ for the two
requirements pertaining to PASA truck inspections and longer combination
vehicles, the pilot program and FMCSA's written PASA guidance complies with
the Section 350(a) requirements. We see no safety impacts arising from these
differences if the PASA and border inspection guidance, particularly plans for
checking all drivers and trucks at all border crossings, is put in place and operates
effectively. Specifically:
                                                                                       7


            Section 350(a)(1)(B)(vi) requires a PASA inspection of all Mexican trucks
            to be used under provisional authority that do not have a valid inspection
            decal. In contrast, FMCSA's regulation 13 implementing this requirement
            limits such inspections to "available commercial motor vehicles." FMCSA's
            description of the pilot program in the Federal Register and its written
            PASA guidance requires that PASAs include an inspection of all vehicles
            that the carrier intends to operate under the pilot program. We see no safety
            impacts arising from this language difference if FMCSA effectively
            implements its PASA and border inspection guidance, particularly plans for
            checking all trucks.

            Section 350(a)(1)(B)(v) requires a review of available data concerning the
            motor carrier’s safety history and other information to determine the
            carrier’s preparedness to comply with Federal motor carrier safety rules and
            regulations and hazardous materials rules and regulations. FMCSA's
            regulations implementing this requirement have not been updated to
            specifically reference Part 380 of the Federal motor carrier safety
            regulations, which establishes minimum requirements for operators of
            longer combination vehicles, such as obtaining knowledge, skills, and
            training for operating such vehicles. However, the Federal Register and
            PASA guidance state that PASAs will verify the Mexico–domiciled motor
            carrier's familiarity with and preparedness for compliance with all Federal
            motor carrier safety regulations. We see no safety impacts arising from this
            language difference.

FMCSA HAS NOT ADDRESSED CERTAIN ISSUES NEEDED FOR
IMPLEMENTING THE PILOT PROGRAM
Our site visits to 6 of 23 border crossings in El Paso, Texas; Laredo, Texas;
Otay Mesa, California; and Tecate, California, found that FMCSA has personnel,
facilities, and systems in place to conduct adequate inspections of Mexican drivers
and vehicles at the border. FMCSA also took actions towards implementing three
recommendations from our August 2009 report that would improve the monitoring
of Mexican Federal CDL holders operating in the United States, including pilot
program participants. We plan to verify FMCSA's actions before closing these
recommendations. Two remaining recommendations, which relate to commercial
bus inspections, are not applicable to FMCSA's pilot program.
Although FMCSA has taken positive actions to improve monitoring of Mexican
drivers and trucks, it has not yet addressed certain issues for implementing the
pilot program. Specifically, FMCSA has not (1) issued coordinated site–specific
plans for checking drivers and trucks at the border, (2) established a system to

13
     C.F.R. Part 365, Subpart E, Appendix A, 1(c)(6).
                                                                                                                      8


verify driver and vehicle eligibility for the pilot program, (3) issued an
implementation plan nor acquired electronic monitoring devices for use in the
pilot program, and (4) conducted pilot program training for inspection personnel at
the border and within the United States.

FMCSA Has Not Issued Coordinated Site-Specific Plans for Checking
Drivers and Trucks at Each Border Crossing
FMCSA has not issued, for each border crossing, site–specific plans for checking
drivers and trucks participating in the pilot program. Site–specific plans are
necessary because of varying logistical conditions at the 23 border crossings with
large truck operations. Without site–specific plans and full coordination with CBP
and state inspection agencies, the risk increases that Mexican carriers will not be
inspected in accordance with FMCSA's pilot program provisions. 14

The border inspections are a critical component of the oversight required by
Section 350(a) because they validate that drivers entering the country are properly
licensed and that trucks displaying a valid Commercial Vehicle Safety Alliance
(CVSA) safety inspection decal have received a safety inspection within the last
3 months. If the truck lacks the decal, a safety inspection is required before the
truck can enter the United States.

In fiscal year (FY) 2010, FMCSA and state officials inspected more than
475,000 Mexico–domiciled motor carrier trucks along the United States–Mexico
border. During this period, Mexico-domiciled driver and truck out-of-service rates
compared favorably with United States-domiciled driver and truck out-of-service
rates. Mexico–domiciled carriers had a driver out–of–service rate of 1.14 percent
and a vehicle out–of–service rate of 17.04 percent. In contrast, United States–
domiciled carriers had a driver out–of–service rate of 5.52 percent and a vehicle
out–of–service rate of 19.82 percent.

In May 2011, we observed driver and truck inspections at five of the six highest
volume border crossings―Bridge of the Americas and Ysleta crossings in El Paso,
Texas; Columbia Solidarity and World Trade Bridge crossings in Laredo, Texas;
and the Otay Mesa crossing in San Diego, California. We also observed
inspections at a lower volume crossing in Tecate, California. These six crossings
accounted for 65 percent of the volume of all FY 2010 large truck traffic at the
23 truck crossings along the United States–Mexico border. Figure 1 is a
photograph of the Otay Mesa border crossing and cites the truck crossing volume
for the six border crossing sites we visited.

14
     During the first 3 months of the pilot program, FMCSA will inspect all drivers and vehicles of Mexico-domiciled
     motor carriers that have provisional authority. According to FMCSA's Federal Register notice, after the first
     3 months of inspections and an FMCSA evaluation, the carrier would be inspected at rates comparable to other
     Mexico-domiciled carriers entering the United States. At the time of our review, FMCSA had not defined these rates.
                                                                                  9


  Figure 1. Otay Mesa Border Crossing and FYs 2009 and 2010
          Truck Crossing Volume for Sites OIG Visited




We observed FMCSA's standard practice of visually selecting commercial zone–
authorized trucks for inspection as they entered and prepared to exit the crossings.
At the time of our border crossing visits, FMCSA had not issued site–specific
guidance on how it would identify drivers and trucks participating in the pilot
program for inspection. FMCSA staff expected that these drivers and trucks would
be identified via electronic equipment installed on Mexico–domiciled carrier
trucks. FMCSA officials informed us that using such electronic equipment would
eliminate the need for site-specific plans, and that an overall plan for using the
electronic equipment to identify and select pilot program trucks for inspection
would suffice. However, as of June 30, 2011, FMCSA has not issued a contract to
procure electronic equipment that would assist in identifying pilot program trucks.

A coordination agreement between FMCSA, CBP, and the states is essential to
ensuring that appropriate inspections take place. The design and physical
conditions of the compound at some crossings allow trucks to leave the border
compound directly from CBP entrance booths, unless FMCSA or the states select
them for inspection. For example, the traffic flow at border crossings such as
El Paso, Laredo, and Ysleta allows vehicles to leave the border compound directly
from CBP booths without direct routing through FMCSA or state inspection
facilities. Figure 2 is a traffic diagram and an aerial photograph of the Ysleta
border crossing facility.
                                                                                10


          Figure 2. Ysleta Traffic Diagram and Aerial Photo




Under these conditions, additional FMCSA and state procedures are required to
ensure pilot program participants are identified and directed to inspection
facilities. Those procedures could include placing an FMCSA or state inspector
along the route to identify trucks participating in the pilot program and directing
them to the Federal or state inspection facility.

On the other hand, some border crossings such as Otay Mesa, California, and
Tecate, California, route trucks directly through booths staffed by FMCSA or state
officials after they pass through CBP booths. Under these conditions, FMCSA or
state officials can easily divert pilot program participants to contained safety
inspection locations for required driver and truck checks. Figure 3 is a traffic
diagram and an aerial photograph of the Tecate border crossing facility showing
direct routing of trucks to the safety inspection facility.
                                                                                11


         Figure 3. Tecate Traffic Diagram and Aerial Photo




In addition to site–specific plans, FMCSA used quality control measures during
the last pilot program, such as comparisons to independent crossing records, to
ensure that its system for identifying and inspecting pilot program trucks was
effective. These measures included comparing CBP crossing records with FMCSA
inspection logs to confirm that project participants were checked at the border. As
of June 30, 2011, FMCSA had not updated or developed such measures for the
proposed 2011 pilot program.

FMCSA Has Not Established Systems for Verifying Pilot Program
Drivers and Vehicles Throughout the United States
FMCSA has not established systems or provided guidance to its field offices,
states, and CBP on how to verify pilot program drivers and trucks for inspection as
they enter the United States and travel beyond the commercial zones. Federal and
state inspectors at the border and state enforcement officials we spoke with in
June and August 2011 at eight states outside the border region, which had received
the most traffic from participants during the previous pilot program, reported that
no guidance had been provided on the new pilot program.
                                                                                    12


Federal law requires that FMCSA establish systems to verify that drivers and
trucks participating in the pilot program comply with Federal requirements. For
instance, pilot program participants must designate the drivers and trucks they plan
to use in the program, and FMCSA must approve all designated drivers and trucks
before long-haul operations start. Any oversight system must be able to properly
identify drivers and trucks participating in the pilot program and verify that they
meet program requirements.

Section 350(a)(10)(A) requires that motor carriers, including foreign carriers, be
knowledgeable about Federal safety standards and be proficient in English.
Specifically, Federal rules 15 require drivers to be sufficiently proficient in English
to (1) converse with the general public, (2) understand highway traffic signs and
signals, (3) respond to official inquiries, and (4) make entries on reports and
records.

To reinforce this regulation, on July 20, 2007, FMCSA issued guidance on English
language proficiency, which states that the inspector must conduct the interview of
the driver in English. The guidance also includes minimum inquiries for the
interview and provides strategies for communicating with non–native speakers of
English, including examples of driver interview questions. The guidance instructs
inspectors to place a driver out of service for failing the test.

The pilot program provisions also require verifying drivers' English language
proficiency during PASAs. This requirement necessitates processes for verifying
at the border that drivers are approved for the pilot program. FMCSA informed us
that it plans to modify its system for electronically verifying drivers' licenses to
include data on drivers' English language proficiency.

Section 350(a)(4) requires that a distinctive Department of Transportation (DOT)
number be assigned to each motor carrier operating beyond the commercial zone.
The DOT number assists inspectors in enforcing the motor carrier safety
regulations. FMCSA officials informed us that Mexico–domiciled trucks
authorized to operate within the commercial zones would continue to have a DOT
number with a "Z" suffix and that pilot program trucks would have a DOT number
with an "X" suffix.

Ideally, FMCSA and state inspectors would identify pilot program trucks using an
automated system that could route trucks directly to FMCSA or state inspection
facilities. FMCSA officials informed us that the electronic equipment it plans to
use in pilot program trucks could be used to detect a pilot program truck that is
approaching the border crossing. In the absence of such an automated
identification system, screening of Mexico–domiciled trucks would need to be

15
     49 C.F.R. § 391.11(b)(2) (2010).
                                                                                                                     13


done visually at the border crossings, as it was during the previous pilot program.
Without official guidance, inspection officials may have difficulty enforcing safety
regulations when the trucks enter the United States and travel beyond the
commercial zones, thereby resulting in increased safety risks and concerns.


FMCSA Has Not Issued an Implementation Plan nor Acquired
Electronic Monitoring Devices for Use in the Pilot Program
FMCSA has not issued an implementation plan nor acquired electronic monitoring
devices for use in the pilot program, despite its policy that calls for providing this
equipment to pilot program participants. FMCSA has also not developed or issued
specific guidance on how Federal and state enforcement staff should use such
electronic monitoring devices. The pilot program provisions call for electronic
monitoring of pilot program trucks to ensure compliance with restrictions on
operating within the United States. FMCSA plans to provide such devices to pilot
program participants, but will retain ownership of the devices. Pilot program
participants would be required to make their trucks available for installation of the
electronic monitoring devices in the United States.

FMCSA anticipates that it will award a 1–year contract, with two 1-year renewal
options, for the electronic monitoring devices by August 5, 2011. FMCSA expects
the contract to cost about $3.2 million for the electronic monitoring devices and
tracking services during FYs 2011 through 2013. FMCSA officials informed us
that, in awarding the contract, they will consider factors such as technical
specification and approach, experience, management approach, past performance,
and price. FMCSA's technical specifications state the electronic monitoring
devices for the pilot program must comply with either (i) the electronic on-board
recorder requirements of 49 C.F.R. § 395.16 or (ii) automated on-board recording
device requirements of 49 C.F.R. § 395.15. According to FMCSA officials, the
devices will have the functionality to electronically record driver's hours of service
and vehicle positioning.

FMCSA Has Not Trained Staff on Specific Pilot Program Provisions
FMCSA has not provided training to enforcement personnel we met with in
May 2011. According to FMCSA's April 2011 Federal Register notice, it was
providing ongoing training to Federal and State auditors, inspectors, and
investigators on pilot program provision and procedures, including cabotage. 16
During our May 2011 site visits, FMCSA, state, and CBP personnel informed us
they had not received training or guidance on conducting PASAs or processing
pilot program participants at the border or within the United States. FMCSA
16
     Cabotage is the act of transporting domestic freight between points in the United States by a foreign motor carrier.
     Federal rules prohibit Mexico-domiciled motor carriers from providing point-to-point transportation services,
     including express delivery services, within the United States for goods other than international cargo.
                                                                                14


would need to provide training on program requirements to Federal and state
enforcement personnel before program initiation. Federal and state border officials
informed us that, without timely guidance and training, they may not be able to
consistently and properly implement the pilot program.


CONCLUSION
The United States and Mexico have agreed to facilitate the cross–border
movement of goods and services between the two nations. FMCSA's pilot
program would authorize Mexico–domiciled motor carriers to transport cargo
throughout the United States, in compliance with the NAFTA cross–border
trucking provisions. FMCSA continues to have personnel, facilities, and systems
in place to conduct adequate inspections of Mexican drivers and trucks at border
crossings. However, additional actions are needed to ensure that drivers and trucks
inspected at the border and within the United States comply with the motor carrier
safety regulations and other Federal requirements. Without strong controls and
processes to monitor the safety performance of Mexico–domiciled motor carriers
with long–haul operating authority, FMCSA cannot ensure that the current level of
safety on the Nation's highways will be maintained.

RECOMMENDATIONS
Before initiation of the pilot program, the FMCSA Administrator should develop
an action plan for inclusion in the Secretary's required report to Congress. This
plan should, at a minimum, identify actions for:

   1. finalizing plans for how FMCSA will comply with Section 350(a)
      requirements to conduct half of the PASAs and compliance reviews in
      Mexico;

   2. issuing coordinated site–specific plans, or an alternative overall plan for
      coordinating with CBP and the states, to ensure that pilot program drivers
      and trucks are inspected at the border;

   3. establishing a system to verify driver and truck eligibility for the pilot
      program;

   4. issuing an implementation plan for using electronic monitoring devices in
      the pilot program; and

   5. conducting pilot program training for inspection and enforcement personnel
      at the border and within the United States.
                                                                              15


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA a draft of this report for review and comment on
August 2, 2011, and received its formal written comments on August 10, 2011.
FMCSA's complete response is included as an appendix to this report. FMCSA
concurred with our recommendation to develop an action plan for inclusion in its
report to Congress prior to starting the pilot program, and expects to submit its
report to Congress in September 2011. We consider our recommendation resolved
but open pending completion of the planned action.


ACTIONS REQUIRED
Subject to the follow-up provisions in Department of Transportation
Order 8000.1C, we request that FMCSA provide information demonstrating
completion of its planned actions within 10 days after the action has been taken.

We appreciate the courtesies and cooperation of FMCSA representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Kerry R. Barras, Program Director, at (817) 978-3318.

                                       #

cc: Martin Gertel, DOT Audit Liaison (M-1)
                                                                                16




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from April through July 2011 in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

Our overall audit objective was to assess FMCSA's policy, procedures, and
processes for granting operating authority to Mexico–domiciled motor carriers
under the pilot program and for monitoring and ensuring the carriers' compliance
with United States laws and regulations. Specifically, we (1) verified whether
FMCSA complied with requirements set forth in Section 350(a) of the 2001
legislation, which included conducting PASAs for Mexico–domiciled carriers
seeking long–haul authority and (2) identified issues pertaining to the proposed
pilot program that should be addressed before the pilot program is initiated.

To determine if FMCSA met the requirements set forth in 350(a), we identified
and reviewed all 34 requirements contained in the Department of Transportation
and Related Agencies Appropriations Act, 2002. We compared the 350(a)
requirements to provisions stated in the Code of Federal Regulations and Federal
Register.

To identify issues that should be addressed before the pilot program is initiated,
we reviewed FMCSA's monitoring and enforcement mechanisms and directly
observed border inspection operations during site visits at 6 of 23 truck border
crossings along the United States–Mexico border―Bridge of the Americas and
Ysleta in El Paso, Texas; World Trade Bridge and Columbia Solidarity Bridge in
Laredo, Texas; and Otay Mesa and Tecate in San Diego and Tecate, California.
We chose five of the six crossings as locations with higher volumes of truck
crossings. We chose a sixth location, Tecate, as a lower volume crossing that was
also geographically adjacent to another site visit crossing.

During the site visits, we reviewed inspection reports and other documentation,
and held interviews with CBP officials, FMCSA inspectors, and state enforcement
personnel. The interviews included questions regarding proposed pilot program
knowledge and preparedness. We observed inspections of commercial motor
vehicles. At all six crossings, we were accompanied by a safety expert with
extensive law enforcement experience to provide technical assistance with our
work.




Exhibit A. Scope and Methodology
                                                                                  17


We observed inspections and enforcement mechanisms at state truck weigh station
facilities in Decatur, Texas, and Dumfries, Virginia. We also judgmentally
selected eight states to interview Motor Carrier Safety Assurance Program
coordinators to evaluate their readiness to enforce pilot program requirements and
to determine whether they had any concerns with mechanisms for monitoring
Mexican motor carriers with provisional operating authority. To select the states,
we reviewed our analysis of the prior pilot program's final inspection results. We
identified all trips outside of the four border states and ranked the number of trips
by state. Based on these rankings, we selected the top eight states―Pennsylvania,
Illinois, Mississippi, Alabama, Louisiana, North Carolina, Washington, and
Colorado.

Finally, we followed up on FMCSA's implementation of outstanding
recommendations from our August 2009 NAFTA report that would improve the
monitoring of Mexican Federal CDL holders operating in the United States.
FMCSA provided information on actions it took towards implementing the prior
recommendations, and we plan to verify these actions during our next audit.




Exhibit A. Scope and Methodology
                                                                                18




EXHIBIT B. SITE VISITS AND CONTACTS MADE
U.S. Department of Transportation
      Office of the Secretary
             Office of Drug and Alcohol Policy and Compliance, Washington, DC
      Federal Motor Carrier Safety Administration
             Headquarters Offices, Washington, DC
             Division Offices
                    Austin, Texas
                    Richmond, Virginia
             Field Offices
                    San Diego, California
                    El Paso, Texas
                    Laredo, Texas

U.S. Department of Homeland Security, Customs and Border Protection
             Headquarters Offices, Washington, DC
                     Office of Field Operations
                     Office of Intelligence and Operations Coordination
                     Office of Internal Affairs
                     Departmental GAO/OIG Liaison Office
             Ports of Entry
                     Otay Mesa, San Diego, California
                     Tecate, Tecate, California
                     Bridge of the Americas, El Paso, Texas
                     Ysleta–Zaragosa Bridge, El Paso, Texas
                     Columbia Solidarity Bridge, Laredo, Texas
                     World Trade Bridge, Laredo, Texas

California Highway Patrol
             Border Division, Commercial Vehicle Section
                    Otay Mesa, San Diego
                    Tecate, Tecate
Texas Department of Public Safety
             Commercial Vehicle Enforcement
                  Columbia Solidarity Bridge, Laredo
                  World Trade Bridge, Laredo
                  Ysleta–Zaragosa Bridge, El Paso
                    Compliance Review Program
                    Decatur Weigh Station, Decatur
Virginia State Police
             Commercial Vehicle Enforcement
                  Dumfries Weigh Station, Dumfries



Exhibit B. Site Visits and Contacts Made
                                                                    19


State Inspection Readiness Interviews
      Alabama Department of Public Safety
      Colorado State Patrol
      Illinois State Police
      Louisiana State Police
      Mississippi Highway Safety Patrol
      North Carolina State Highway Patrol
      Pennsylvania State Police
      Washington State Patrol

Commercial Vehicle Safety Alliance
            Office of the Executive Director, Greenbelt, Maryland




Exhibit B. Site Visits and Contacts Made
                                                                                                         20




EXHIBIT C. REQUIREMENTS OF PUBLIC LAW 107-87,
SECTION 350(a )
No.    Section 350                                 Requirement Language
        Reference
      §350(a)               (a) No funds limited or appropriated in this Act may be obligated or expended
                            for the review or processing of an application by a Mexican motor carrier for
                            authority to operate beyond United States municipalities and commercial
                            zones on the United States-Mexico border until the Federal Motor Carrier
                            Safety Administration—
 1    §350(a)(1)(A)         requires a safety examination of such motor carrier to be performed before the
                            carrier is granted conditional operating authority to operate beyond United
                            States municipalities and commercial zones on the United States-Mexico
                            border;
      §350(a)(1)(B)         requires the safety examination to include—
 2    §350(a)(1)(B)(i)      verification of available performance data and safety management programs;
 3    §350(a)(1)(B)(ii)     verification of a drug and alcohol testing program consistent with part 40 of
                            title 49, Code of Federal Regulations;
 4    §350(a)(1)(B)(iii)    verification of that motor carrier’s system of compliance with hours-of-service
                            rules, including hours-of service records;
 5    §350(a)(1)(B)(iv)     verification of proof of insurance;
 6    §350(a)(1)(B)(v)      a review of available data concerning that motor carrier’s safety history, and
                            other information necessary to determine the carrier’s preparedness to comply
                            with Federal Motor Carrier Safety rules and regulations and Hazardous
                            Materials rules and regulations;
 7    §350(a)(1)(B)(vi)     an inspection of that Mexican motor carrier’s commercial vehicles to be used
                            under such operating authority, if any such commercial vehicles have not
                            received a decal from the inspection required in subsection (a)(5);
 8    §350(a)(1)(B)(vii)    an evaluation of that motor carrier’s safety inspection, maintenance, and repair
                            facilities or management systems, including verification of records of periodic
                            vehicle inspections;
 9    §350(a)(1)(B)(viii)   verification of drivers’ qualifications, including a confirmation of the validity
                            of the Licencia de Federal de Conductor of each driver of that motor carrier
                            who will be operating under such authority; and
10    §350(a)(1)(B)(ix)     an interview with officials of that motor carrier to review safety management
                            controls and evaluate any written safety oversight policies and practices.
      §350(a)(1)(C)         requires that—
11    §350(a)(1)(C)(i)      Mexican motor carriers with three or fewer commercial vehicles need not
                            undergo on-site safety examination; however 50 percent of all safety
                            examinations of all Mexican motor carriers shall be conducted onsite; and
12    §350(a)(1)(C)(ii)     such on-site inspections shall cover at least 50 percent of estimated truck
                            traffic in any year.
13    §350(a)(2)            requires a full safety compliance review of the carrier consistent with the
                            safety fitness evaluation procedures set forth in part 385 of title 49, Code of
                            Federal Regulations, and gives the motor carrier a satisfactory rating, before
                            the carrier is granted permanent operating authority to operate beyond United
                            States municipalities and commercial zones on the United States-Mexico
                            border, and requires that any such safety compliance review take place within
                            18 months of that motor carrier being granted conditional operating authority,
                            provided that—




Exhibit C. Requir ements of Public Law 107-87, Section 350(a)
                                                                                                    21


No.    Section 350                           Requirement Language
        Reference
14    §350(a)(2)(A)   Mexican motor carriers with three or fewer commercial vehicles need not
                      undergo onsite compliance review; however 50 percent of all compliance
                      reviews of all Mexican motor carriers shall be conducted on-site; and
15    §350(a)(2)(B)   any Mexican motor carrier with 4 or more commercial vehicles that did not
                      undergo an on-site safety exam under (a)(1)(C), shall undergo an on-site
                      safety compliance review under this section.
16    §350(a)(3)      requires Federal and State inspectors to verify electronically the status and
                      validity of the license of each driver of a Mexican motor carrier commercial
                      vehicle crossing the border;
17    §350(a)(3)(A)   for every such vehicle carrying a placardable quantity of hazardous materials;
18    §350(a)(3)(B)   whenever the inspection required in subsection (a)(5) is performed; and
19    §350(a)(3)(C)   randomly for other Mexican motor carrier commercial vehicles, but in no case
                      less than 50 percent of all other such commercial vehicles.
20    §350(a)(4)      gives a distinctive Department of Transportation number to each Mexican
                      motor carrier operating beyond the commercial zone to assist inspectors in
                      enforcing motor carrier safety regulations including hours-of-service rules
                      under part 395 of title 49, Code of Federal Regulations;
21    §350(a)(5)      requires, with the exception of Mexican motor carriers that have been granted
                      permanent operating authority for three consecutive years—
22    §350(a)(5)(A)   inspections of all commercial vehicles of Mexican motor carriers authorized,
                      or seeking authority to operate beyond United States municipalities and
                      commercial zones on the United States-Mexico border that do not display a
                      valid Commercial Vehicle Safety Alliance inspection decal, by certified
                      inspectors in accordance with the requirements for a Level I Inspection under
                      the criteria of the North American Standard Inspection (as defined in section
                      350.105 of title 49, Code of Federal Regulations), including examination of
                      the driver, vehicle exterior and vehicle under-carriage;
23    §350(a)(5)(B)   a Commercial Vehicle Safety Alliance decal to be affixed to each such
                      commercial vehicle upon completion of the inspection required by clause (A)
                      or a re-inspection if the vehicle has met the criteria for the Level I inspection;
                      and
24    §350(a)(5)(C)   that any such decal, when affixed, expire at the end of a period of not more
                      than 90 days, but nothing in this paragraph shall be construed to preclude the
                      Administration from requiring reinspection of a vehicle bearing a valid
                      inspection decal or from requiring that such a decal be removed when a
                      certified Federal or State inspector determines that such a vehicle has a safety
                      violation subsequent to the inspection for which the decal was granted.
25    §350(a)(6)      requires State inspectors who detect violations of Federal motor carrier safety
                      laws or regulations to enforce them or notify Federal authorities of such
                      violations;
26    §350(a)(7)(A)   equips all United States-Mexico commercial border crossings with scales
                      suitable for enforcement action; equips 5 of the 10 such crossings that have
                      the highest volume of commercial vehicle traffic with weigh-in-motion
                      (WIM) systems; ensures that the remaining 5 such border crossings are
                      equipped within 12 months; requires inspectors to verify the weight of each
                      Mexican motor carrier commercial vehicle entering the United States at said
                      WIM equipped high volume border crossings; and
27    §350(a)(7)(B)   initiates a study to determine which other crossings should also be equipped
                      with weigh-in-motion systems;




Exhibit C. Requir ements of Public Law 107-87, Section 350(a)
                                                                                                  22


No.    Section 350                            Requirement Language
        Reference
28    §350(a)(8)       the Federal Motor Carrier Safety Administration has implemented a policy to
                       ensure that no Mexican motor carrier will be granted authority to operate
                       beyond United States municipalities and commercial zones on the United
                       States-Mexico border unless that carrier provides proof of valid insurance
                       with an insurance company licensed in the United States;
29    §350(a)(9)       requires commercial vehicles operated by a Mexican motor carrier to enter the
                       United States only at commercial border crossings where and when a certified
                       motor carrier safety inspector is on duty and where adequate capacity exists to
                       conduct a sufficient number of meaningful vehicle safety inspections and to
                       accommodate vehicles placed out-of-service as a result of said inspections.
      §350(a)(10)      publishes—
30    §350(a)(10)(A)   interim final regulations under section 210(b) of the Motor Carrier Safety
                       Improvement Act of 1999 (49 U.S.C. 31144 note) that establish minimum
                       requirements for motor carriers, including foreign motor carriers, to ensure
                       they are knowledgeable about Federal safety standards, that may include the
                       administration of a proficiency examination;
31    §350(a)(10)(B)   interim final regulations under section 31148 of title 49, United States Code,
                       that implement measures to improve training and provide for the certification
                       of motor carrier safety auditors;
32    §350(a)(10)(C)   a policy under sections 218(a) and (b) of that Act (49 U.S.C. 31133 note)
                       establishing standards for the determination of the appropriate number of
                       Federal and State motor carrier inspectors for the United States-Mexico
                       border;
33    §350(a)(10)(D)   a policy under section 219(d) of that Act (49 U.S.C. 14901 note) that prohibits
                       foreign motor carriers from leasing vehicles to another carrier to transport
                       products to the United States while the lessor is subject to a suspension,
                       restriction, or limitation on its right to operate in the United States; and
34    §350(a)(10)(E)   a policy under section 219(a) of that Act (49 U.S.C. 14901 note) that prohibits
                       foreign motor carriers from operating in the United States that is found to
                       have operated illegally in the United States.




Exhibit C. Requir ements of Public Law 107-87, Section 350(a)
                                                                                                       23




EXHIBIT D. PRIOR AUDIT COVERAGE
In addition to the reporting requirements in the 2007 legislation, the 2001
legislation requires annual audits of specified criteria. Our last NAFTA audit
report, issued in August 2009, 17 identified two overarching issues. First, states
inconsistently reported traffic convictions incurred by holders of Mexican driver’s
licenses to the MCDB and Federal law does not require the states to report these
convictions. Traffic conviction reporting requirements and monitoring procedures
made it difficult to account for the possibility that Mexican Federal CDL holders
operating in the United States could also legally hold another Mexican-issued
driver’s license. Inconsistent reporting or monitoring problems made the system
vulnerable to incomplete information or delays. As a result, any conviction
information that is not reported or delayed could result in Mexican Federal CDL
holders continuing to drive in the United States after incurring a disqualifying
traffic offense. Second, performing safe and efficient bus inspections at border
crossings continued to be a challenge for FMCSA, as buses were less likely to be
subject to inspections at non–commercial crossings not fully staffed by inspectors;
and, at two non–commercial crossings, bus inspection space was unsafe due to the
proximity to moving traffic.

We made three recommendations to address improvements needed in the
monitoring of Mexican Federal CDL holders. Specifically, we recommended that
FMCSA (a) develop and implement a timely report that identifies state data
inconsistencies in the MCDB, and assign in the MCDB data quality control plan
the responsibilities to address and follow up on data inconsistencies; (b) assess
whether legislative, regulatory, or MCDB system changes are needed to ensure the
consistent reporting and matching of different categories of traffic convictions,
including convictions in non–commercial vehicles and convictions occurring
under various types of Mexican-issued licenses; and (c) develop an action plan for
implementing identified changes in the monitoring process, based on assessment
results. FMCSA has addressed these three CDL–related recommendations. We
also made two additional recommendations, which remain open, to improve
capacity to perform commercial bus inspections, but these recommendations are
not applicable to FMCSA's pilot program.

In addition to the August 2009 audit, OIG has issued numerous reports on cross–
border trucking issues.

• OIG Report Number MH-2009-034, “Status Report on NAFTA Cross-Border
  Trucking Demonstration Project,” February 6, 2009.

17
     OIG Report Number MH-2009-068, “Follow-Up Audit of the Implementation of the North American Free Trade
     Agreement’s (NAFTA) Cross-Border Trucking Provisions,” August 17, 2009.


Exhibit D. Pri or Audit Coverage
                                                                      24


• OIG Report Number MH-2008-081, “Report on the Scope and Methodology of
  FMCSA’S Review of Canadian/Mexican Compliance with Federal
  Commercial Motor Vehicle Safety Standards,” September 24, 2008.
• OIG Report Number MH-2008-040, “Interim Report on NAFTA Cross-Border
  Trucking Demonstration Project,” March 10, 2008.
• OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed
  NAFTA Cross-Border Trucking Demonstration Project,” September 6, 2007.
• OIG Report Number MH-2007-062, “Follow-up Audit on the Implementation
  of the North American Free Trade Agreement’s Cross-Border Trucking
  Provisions,” August 6, 2007.
• OIG Report Number MH-2005-032, “Follow-Up Audit of the Implementation
  of the North American Free Trade Agreement’s (NAFTA) Cross-Border
  Trucking Provisions,” January 3, 2005.
• OIG Report Number MH-2003-041, “Follow-Up Audit on the Implementation
  of Commercial Vehicle Safety Requirements at the U.S.-Mexico Border,”
  May 16, 2003.
• OIG Report Number MH-2002-094, “Implementation of Commercial Vehicle
  Safety Requirements at the U.S.-Mexico Border,” June 25, 2002.
• OIG Report Number MH-2001-096, “Motor Carrier Safety at the U.S.-Mexico
  Border,” September 21, 2001.
• OIG Report Number MH-2001-059, “Status of Implementing the North
  American Free Trade Agreement’s Cross-Border Trucking Provisions,”
  May 8, 2001.
• OIG Report Number TR-2000-013, “Mexico-Domiciled Motor Carriers,”
  November 4, 1999.
• OIG Report Number TR-1999-034, “Motor Carrier Safety Program for
  Commercial Trucks at United States Borders,” December 28, 1998.




Exhibit D. Pri or Audit Coverage
                                                                  25




EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Kerry R. Barras                       Program Director

  Wendy M. Harris                       Program Director

  Courtney Y. Potter                    Project Manager

  Darrell A. Riegel                     Project Manager

  Patrick D. Conley                     Senior Auditor

  Anthony V. Saraco                     Senior Auditor

  Anette Soto                           Senior Analyst

  Stuart I. Weibel                      Senior Auditor

  Luke A. Brennan                       Analyst

  Sandra T. Menjivar                    Analyst

  Scott L. Williams                     Analyst

  Bob R. Brooks                         Technical Safety Expert

  Philip A. Vasquez                     Technical Safety Expert

  Seth B. Kaufman                       Senior Counsel

  Harriet E. Lambert                    Writer-Editor




Exhibit E. Major Contributors to This Report
                                                                                                             26



           APPENDIX. AGENCY COMMENTS

                                                                   Memorandum
           U.S. Department
           Of Transportation

           Federal Motor Carrier
           Safety Administration



Subject:   INFORMATION: Response to the OIG Draft                  Date:      August 10, 2011
           Report “FMCSA Generally Complies With
           Statutory Requirements, But Actions Are Needed
           Prior To Initiating Its NAFTA Cross-Border
           Trucking Pilot Program”
           Project No. 11M3003MOOO

From       Anne S. Ferro                                           Reply to
                                                                   Attn of:
                                                                              MC-E
           Administrator


To:        Joseph W. Comé
           Assistant Inspector General for
                 Highway and Transit Audits


           The Federal Motor Carrier Safety Administration (FMCSA) recognizes the critically important
           responsibilities it has been given with regard to implementing the provisions of law tasking it with
           providing effective oversight of the safety of truck operations by Mexico-domiciled motor carriers
           in the United States under the scope of the pilot program. The FMCSA has demonstrated that it is
           up to the task by its established track record of effective actions in this regard to date. The Agency
           has already completed many actions that are necessary to fulfill the requirements prior to
           beginning these operations, including publishing a policy memorandum on conducting
           Pre-Authority Safety Audits (PASA), training its field staff on the new PASA policies during July
           and early August, and soliciting proposals for the electronic monitoring devices to be used during
           the program. The FMCSA is working hard to fulfill the remaining requirements as quickly and
           effectively as possible. Most recently, FMCSA completed several key elements in July, including
           a Memorandum of Understanding with Mexico concerning the pilot program and consideration of
           public input with regard to the proposed pilot program. These were critical precursors to
           accomplishing the process specific requirements discussed in the Office of Inspector General’s
           (OIG) draft report. The Agency is now working to accomplish these final details. Overall, the
           Agency has established sufficient mechanisms to ensure that Mexico-domiciled motor carriers
           granted long-haul authority comply with Federal motor carrier safety laws and regulations.




           Appendix. Agency Comments
                                                                                                   27

RECOMMENDATION AND RESPONSE

RECOMMENDATION 1. Before initiation of the pilot program, the FMCSA Administrator
should develop an action plan for inclusion in the Secretary's required report to Congress. This
plan should, at a minimum, identify actions for:

   1. Finalizing plans for how FMCSA will comply with Section 350(a) requirements to conduct
      half of the PASAs and compliance reviews in Mexico;
   2. Issuing coordinated site-specific plans, or an alternative overall plan for coordinating with
      U.S. Customs and Border Protection (CBP) and the States, to ensure that pilot program
      drivers and trucks are inspected at the border;
   3. Establishing a system to verify driver and truck eligibility for the pilot program;
   4. Issuing an implementation plan for using electronic monitoring devices in the pilot
      program; and
   5. Conducting pilot program training for inspection and enforcement personnel at the border
      and within the United States.

RESPONSE: CONCUR. The FMCSA will ensure that the Secretary’s report to Congress
addresses each of the requirements enumerated by law, and specifically, those elements included
in the recommendation. The Agency anticipates that the report to Congress will be issued prior to
the end of September 2011 and has actions underway or planned in each of these areas. For
example, FMCSA has:

   •   Initiated training for its field staff on conducting the PASA in accordance with FMCSA
       regulations and enhanced oversight mechanisms outlined in the Agency’s July 8 Federal
       Register notice announcing the pilot program.
   •   Has had an extensive discussion with States about the type and format of training for
       enforcement personnel.
   •   Begun reviewing proposals for electronic monitoring equipment and will issue guidance
       and conduct training on the equipment and the oversight plans prior to initiating the pilot
       program. The capabilities of this equipment will also allow FMCSA to finalize the plans
       for ensuring proper inspections at the border and coordinating activities with CBP and our
       State partners.
   •   Started programming changes for its Query Central program that will allow Federal and
       State inspectors to ensure Mexican drivers and vehicles have been approved for the pilot
       program during roadside inspections.
   •   Reviewed procedures for its field staff to use when traveling to Mexico for conducting
       PASA and compliance reviews and will comply with all the legal requirements for
       conducting reviews in Mexico.

                                             -- -- -- --

The FMCSA appreciates the opportunity to review the OIG draft report and recognizes the
extensive and detailed efforts of the OIG over the course of this audit. The Agency has already
put these efforts to good use and will continue to rely upon the OIG findings as we move forward
in our efforts. Should you have any questions, comments, or need additional information, please
contact William Quade, Associate Administrator for Enforcement and Program Delivery, at
202-366-2172 or by email at william.quade@dot.gov.

Appendix. Agency Comments
